May 13, 2014

MEMORANDUM FOR:              Marilyn Stoll
                             Acting Director for the Administrative Programs Directorate



FROM:                        Andrew Katsaros
                             Assistant Inspector General for Audit

SUBJECT:                     Audit of Departmental Premium-class Travel Spending



We are initiating an audit of premium-class travel spending at the Department. Our overall
objective will be to evaluate controls over premium-class travel spending and how they have
been implemented. As part of this audit, we will assess whether the Department has established
effective controls over related approvals, justifications, and documentation in order to comply
with applicable laws, regulations, and policies.

We look forward to meeting with you on May 14, 2014, to discuss the audit’s scope and
methodology. In the meantime, if you have any questions about this audit, please contact me at
(202) 482-7859 or Patty McBarnette, Director of Financial and Operational Audits, at (202)
482-3391. Thank you in advance for your cooperation.
